<html>
<title> - POST-PASPA: AN EXAMINATION OF SPORTS BETTING IN AMERICA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


        POST-PASPA: AN EXAMINATION OF SPORTS BETTING IN AMERICA

=======================================================================

                                 HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 27, 2018

                               __________

                           Serial No. 115-67

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


      Available via the World Wide Web: http://judiciary.house.gov
                       
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-844 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e483948ba4879197908c818894ca878b89ca">[email&#160;protected]</a>                       
                       
                       
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JERROLD NADLER, New York
    Wisconsin                        ZOE LOFGREN, California
LAMAR SMITH, Texas                   SHEILA JACKSON LEE, Texas
STEVE CHABOT, Ohio                   STEVE COHEN, Tennessee
DARRELL E. ISSA, California          HENRY C. ``HANK'' JOHNSON, Jr., 
STEVE KING, Iowa                         Georgia
LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
TED POE, Texas                       KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC L. RICHMOND, Louisiana
TREY GOWDY, South Carolina           HAKEEM S. JEFFRIES, New York
 RAUL LABRADOR, Idaho                DAVID CICILLINE, Rhode Island
BLAKE FARENTHOLD, Texas              ERIC SWALWELL, California
DOUG COLLINS, Georgia                TED LIEU, California
RON DeSANTIS, Florida                JAMIE RASKIN, Maryland
KEN BUCK, Colorado                   PRAMILA JAYAPAL, Washington
JOHN RATCLIFFE, Texas                BRAD SCHNEIDER, Illinois
MARTHA ROBY, Alabama                 VALDEZ VENITA ``VAL'' DEMINGS, 
MATT GAETZ, Florida                      Florida
MIKE JOHNSON, Louisiana
ANDY BIGGS, Arizona
JOHN RUTHERFORD, Florida
KAREN HANDEL, Georgia
KEITH ROTHFUS, Pennsylvania

          Shelley Husband, Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

Subcommittee on Crime, Terrorism, Homeland Security, and Investigations

           F. JAMES SENSENBRENNER, Jr.,  Wisconsin, Chairman
                  LOUIE GOHMERT, Texas, Vice-Chairman

STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
TED POE, Texas                       VALDEZ VENITA ``VAL'' DEMINGS, 
TREY GOWDY, South Carolina               Florida
JOHN RATCLIFFE, Texas                KAREN BASS, California
MARTHA ROBY, Alabama                 CEDRIC L. RICHMOND, Louisiana
MIKE JOHNSON, Louisiana              HAKEEM S. JEFFRIES, New York
JOHN RUTHERFORD, Florida             TED LIEU, California
                                     JAMIE RASKIN, Maryland
                           
                           
                           C O N T E N T S

                              ----------                              

                           SEPTEMBER 27, 2018

                           OPENING STATEMENTS

                                                                   Page
The Honorable Bob Goodlatte, Virginia, Chairman, Committee on the 
  Judiciary......................................................     3
The Honorable Jerrold Nadler, New York, Ranking Member, Committee 
  on the Judiciary...............................................     5
The Honorable F. James Sensenbrenner, Wisconsin, Chairman, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations, Committee on the Judiciary.....................     1

                               WITNESSES

Jocelyn More, Executive Vice President, Communications and Public 
  Affairs, National Football League
    Oral Statement...............................................     6
Les Bernal, National Director, Stop Predatory Gambling
    Oral Statement...............................................     8
Sara Slane, Senior Vice President of Public Affairs, American 
  Gaming Association
    Oral Statement...............................................    10
Jon Bruning, Counselor, Coalition to Stop Online Gambling
    Oral Statement...............................................    11
Becky Harris, Chair, Nevada Gaming Control Board
    Oral Statement...............................................    13

 
        POST-PASPA: AN EXAMINATION OF SPORTS BETTING IN AMERICA

                              ----------                              


                      THURSDAY, SEPTEMBER 27, 2018

                        House of Representatives

                   Subcommittee on Crime, Terrorism,

                 Homeland Security, and Investigations

                       Committee on the Judiciary

                            Washington, DC.

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2141, Rayburn House Office Building, Hon. James F. 
Sensenbrenner, Jr. [chairman of the subcommittee] presiding.
    Present: Representatives Sensenbrenner, Gohmert, Goodlatte, 
Chabot, Roby, Rutherford, Rothfus, Collins, Nadler, Demings, 
Richmond, Jeffries, and Lieu.
    Staff Present: Robert Parmiter, Counsel; Joseph Zanoni, Law 
Clerk; Scott McCullers, Coalitions Director; Joe 
Graupensperger, Minority Counsel; John Doty, Minority Senior 
Advisor; Danielle Brown, Minority Deputy Chief Counsel and 
Parliamentarian; Monalisa Dugue, Minority Deputy Chief Counsel, 
Subcommittee on Crime, Terrorism, Homeland Security and 
Investigations; David Greengrass, Minority Senior Counsel; and 
Veronica Eligan, Minority Professional Staff Member.
    Mr. Sensenbrenner. The subcommittee will come to order, and 
the chair is authorized to declare recesses at any time during 
this hearing.
    Good morning. And I would like to welcome you all to 
today's hearing. First of all, let me say that the topic that 
we are going to be discussing today is probably just as 
important in terms of setting the future of American society of 
what is going on before our Judiciary Committee counterparts on 
the other side of the Capitol. But, obviously, we don't have 
the attention of the media, since we have a mostly empty press 
table over there, you know.
    However, this is going to be an issue that is going to be 
really very, very important, you know, in terms of making a 
determination of how professional and amateur sports are played 
and any regulation, if any, the Congress should decide to put 
on the huge amounts of money that our bet both in legal and, in 
some cases, illegal forums.
    The subcommittee will examine the state of sports gambling 
in America. This subject is extremely important and complex and 
development in the past year mean it may soon affect the lives 
of millions of Americans. Sports in America are tridently woven 
into our lives, they are our pastime, our passion. They bring 
us together. They divide us, hopefully in good sportsmanship, 
and they serve as an escape, and yet they consume us. I don't 
watch much television, but when the Packers and the Brewers are 
on the TV is on in my house. And I am able to get away from 
what goes on in this business. And I am particularly happy to 
see the Brewers on their way to the World Series. And come to 
Milwaukee if you want to see some really great baseball played 
in the month of October.
    Earlier this year, the Supreme Court in the case of Murphy 
v. NCAA struck down the Professional and Amateur Sports 
Protection Act or PASPA. PASPA was enacted in 1992 with the 
express purpose of protecting the integrity of professional and 
amateur American athletics. As written, PASPA effectively 
prohibited State sanction sports betting nationwide. As long as 
it contained--although contained a grandfather clause, the 
exempting States where wagering was already legal, including 
Nevada. Its nullification by the Supreme Court was preceded by 
many years of litigation, mostly involving the State of New 
Jersey, and its efforts to establish a legal sports wagering 
regime.
    In issuing the Murphy decision, Justice Alito wrote that 
the law unconstitutionally commandeered the regulatory power of 
the States to enact their own gambling laws. Of course, the 
Tenth Amendment provides that all powers not expressly granted 
to the Federal Government are reserved to the States and to the 
people.
    Specifically, Justice Alito said the legalization of sports 
gambling requires an important policy choice, and this is one 
that we will be making here some time in the future, but the 
choice is not completely ours to make. Congress can regulate 
sports gambling directly, but if it elects not to do so, each 
State is free to act on its own. Our job is to interpret the 
law Congress has enacted and decide whether it is consistent 
with the Constitution. PASPA is not.
    PASPA regulates State government's regulations of their 
citizens. The Constitution gives Congress no such power. The 
Supreme Court's ruling means that unlike during the 25-year 
existence of PASPA, States are now free to enact their own 
statutory and regulatory sports gambling schemes, and that is 
why we are here today. This panel before us should show how 
this issue permeates every level of government, and crosses 
from the gambling industry to professional athletics to 
organizations dedicated to protecting citizens and to State 
regulatory bodies.
    Today I expect to hear from our distinguished panel about 
the options available in the post-Murphy environment. One 
option, of course, would be for Congress to reenact a Federal 
ban on sports gambling. Some have suggested that doing so would 
be as simple as prohibiting corporations and not States from 
engaging in sports gambling activities. And it would curb any 
use of legalized commercialized sports wagering to prey on 
vulnerable citizens.
    Another possibility would be for Congress to defer to the 
States, allow them to legalize and regulate the sports gambling 
business. This option is attractive to many who want the free 
market to work its will since many current State laws and 
regulations already address such issues as age restrictions, 
record keeping requirements, and licensing and suitability 
determination.
    And the third option would be for Congress to adopt uniform 
minimum Federal standards, which would guide the imposition of 
sports wagering across the Nation in the States that desire to 
legalize this practice.
    Now, let me, you know, express a personal view. With the 
huge amount of money that is involved in sports gambling, both 
above board and below board, the temptation is there to throw 
games, whether it is done by officials, whether it is done by 
players, or whether it is done by, you know, the actual teams.
    The first commissioner was appointed to oversee baseball 
following the Black Sox scandal. Recently there was an NBA 
referee that ended up being accused, and I believe convicted, 
of helping throw a game. And what I can say, also, being a 
Green Bay Packer fan is, you know, any controversial call like 
the extremely bad calls against Clay Matthews for roughing the 
passer, you know, in my opinion, the question will arise as to 
whether that call was made by a referee who was calling them as 
he saw them or by a referee who was trying to influence the 
outcome of the games. You know, unless something is done, you 
know, in my opinion, you have to protect honest and legitimate 
betters from those, you know, who would like to tilt games one 
way or the other illegally, unethically, and against the sports 
rules. We are going to be in for a huge amount of trouble in 
the future.
    As I said at the outset, this is a complex issue involving 
a variety of other issues and statutes outside of PASPA. There 
may be need to update other Federal statutes to reflect this 
new reality. As a husband, father, grandfather and sports fan, 
I am committed to two things, protecting our children and the 
games we love. Any solution crafted by Congress must address 
these two principles.
    And I thank our distinguished panel of witnesses, I look 
forward to your testimony, and now yield to the chair of the 
full committee, the gentlemen from Virginia, Mr. Goodlatte.
    Chairman Goodlatte. Thank you, Mr. Chairman. I am pleased 
to be here today and I want to welcome all of our witnesses. 
Sports gambling is an issue I know well. Throughout my tenure 
in Congress I have worked to curb the proliferation of unlawful 
online gambling activity.
    In 2006, I led efforts to enact the Unlawful Internet 
Gambling Enforcement Act, or UIGEA. I have consistently noted 
the dangers of unlicensed, untaxed, and unregulated internet 
gambling parlors which suck billions of dollars out of American 
citizens, and can serve as a vehicle for money laundering by 
organized crime syndicates and terrorists.
    Nevertheless, we are here today because earlier this year 
the Supreme Court struck down the Professional and Amateur 
Sports Protection Act, or PASPA, by a 6 to 3 vote on 
constitutional grounds. This means that State legislators 
across the country are now enacting their own laws to legalize 
and regulate gambling. Since the Supreme Court's ruling in May, 
the States of Delaware, New Jersey, Mississippi, and my 
neighboring State of West Virginia, which borders my 
congressional district begun taking legal sports wagers. It is 
a certainty that more States will soon follow.
    Clearly, this issue is ripe for Congress' consideration, 
and I am pleased that we have such a diverse and distinguished 
panel to educate our members on this issue. I want to make two 
things clear at the outset. I do not believe gambling is a 
victimless activity. In fact, I think online gambling, in 
particular, can be more destructive to families and communities 
of addictive gamblers than if a bricks and mortar casino were 
built next door. I am looking forward to speaking with Mr. 
Bruning, Mr. Bernal, and the rest of the panel about that.
    My second point is this, I have said it for years. It is a 
key principal of Federalism that generally States have the 
authority to permit or prohibit activity that occurs wholly 
within their borders, presumably this would include gambling. 
However, with the development of the internet and online 
gambling, State regulations are difficult, if not impossible to 
enforce, as electronic communications move freely across 
borders.
    I would also note that depending upon the administration 
and the will of the Department of Justice, Federal Government 
agencies have not done a very good job of enforcing UIGEA laws. 
That could be a key issue for Congress to consider, what role 
the Federal Government should have in this. The answer to that 
question underlies this entire issue. The Federal wire fraud 
statutes, for example, unquestionably criminalize fraudulent 
activity that occurs on the internet.
    And Federal courts have consistently held that the internet 
is interstate in nature. Conversely, in recent years, many 
gambling operators have demonstrated technology that can 
allegedly, and I say allegedly, ensure a better placing a bet 
is located in a State where gambling is legal. Technology, in 
fact, has a pivotal role to play here. I recently witnessed a 
technological demonstration from a sports integrity monitoring 
service reporting on suspicious activity during a 2018 World 
Cup qualifying match between South Africa and Senegal.
    As the game progressed and the odds changed on the number 
of goals that would be scored, the system recognized an 
algorithmic outlier while tracking the placement of wagers on 
the game. FIFA and the sports monitors began following the game 
more closely and saw the referee call a deliberate handball 
that simply did not happen. There was an investigation and the 
referee was banned for life for match fixing. The game was 
replayed and Senegal won qualifying for the World Cup.
    Obviously, our technological capabilities as a society have 
come a long way. But even as we consider what is possible in 
that realm, it is our duty as law makers to remain focused on 
the fundamental constitutional questions, and to ensure we do 
what is best for our neighbors and families.
    Mr. Chairman, I want to thank you again for convening this 
hearing. It is a difficult issue, but Congress has a duty to 
consider the issues related to it.
    I am a father and grandfather, as you are, and what we do 
here will affect generations to come.
    Thank you, Mr. Chairman.
    Mr. Sensenbrenner. I thank the gentleman. The chair now 
recognizes the ranking member of the full committee, the 
gentleman from New York, Mr. Nadler.
    Mr. Nadler. Thank you, Mr. Chairman. I commend the 
subcommittee's chairman, Jim Sensenbrenner, and the ranking 
member, Sheila Jackson Lee, for holding this hearing today on a 
topic that is important for Congress to examine because of 
recent developments in the law, and to having the nerve to hold 
it despite the developments in the other body that are 
capturing some people's attention.
    In June, the Supreme Court ruled that the Professional and 
Amateur Sports Protection Act, otherwise known as PASPA, which 
prohibited States from authorizing sports betting violated the 
Tenth Amendment to the Constitution. In response, several 
States have enacted laws to allow interstate sports betting, 
joining Nevada, which had been grandfathered because it allowed 
heavily regulated sports betting prior to PASPA.
    Certainly, we should all acknowledge that there is already 
a huge volume of sports betting taking place in this country, 
whether or not it is allowed by law or regulated in any way. 
Varying estimates indicate that the level of illegal sports 
betting is between $50 million and $200 million, and we don't 
even tax it.
    Whether it takes place through a local bookmaker, online 
through an offshore sports book, or in a State where it is 
legal and regulated, sports gambling has long been a part of 
our culture. In fact, betting actually serves to generate a 
substantial amount of interest in the sports themselves. We 
cannot simply prevent sports betting by enacting laws to 
prohibit it and pretend that it will go away.
    However, that is not to say that government does not have 
an interest in ensuring that such gambling is free of fraud, as 
we say, on the up and up. As more States enact laws to allow 
sports gambling within their borders and seek to establish 
standards and regulatory frameworks to govern how it may take 
place. Congress should examine these issues towards involving 
the integrity of gaming and consumer protection.
    Today's hearing is a good start. Before us today is a broad 
spectrum of witnesses who will testify from each of their 
differing perspectives concerning what is taking place, how it 
impacts our citizens and the professional sports leagues, and 
how sports betting is currently and most effectively regulated 
in some States. I suspect this will be the beginning of a 
conversation about these issues that we will continue, as the 
situation evolves and as our county adapts to the post-PASPA 
legal framework.
    I look forward to our discussion today. I look forward to 
hearing the witnesses. And I yield back the balance of my time.
    Mr. Sensenbrenner. Thank you. Without objection, other 
members' opening statements will be made a part of the record. 
We always begin our hearings by swearing in the witnesses. We 
have some very distinguished witnesses today. And would you 
please rise.
    Please raise your right hand. Do you solemnly swear the 
testimony you are about to give before this committee is the 
truth, the whole truth, and nothing but the truth, so help you 
God?
    Let the record show that all the witnesses answered in the 
affirmative, and please be seated.
    I will introduce all of the witnesses and then call on you 
for 5-minute statements, going from my left to my right, 
opposite if you are looking at me rather than me looking at 
you.
    Our first witness today is Ms. Jocelyn Moore, executive 
vice-president for communications and public affairs at the 
National Football League.
    Our second witness is Mr. Les Bernal, who is the national 
director of Stop Predatory Gambling.
    Our third witness is Ms. Sara Slane. Ms. Slane is the 
senior vice-president of public affairs at the American 
Gambling Association.
    Mr. John Bruning, our fourth witness, joints us today in 
his capacity as counselor to the coalition to stop online 
gambling.
    And our fifth witness is Chairwoman Becky Harris. 
Chairwoman Harris is currently serving as chair of the Nevada 
Gaming Control Board.
    All of the witness' written statements will be included as 
part of their testimony, without objection. I ask that each 
witness summarize his or her testimony in 5 minutes or less. 
You will see green, yellow, and red lights in front of you. You 
know what they mean. And the chair intends to strictly enforce 
the 5-minute rule, both on the witnesses and on the members.
    So, Ms. Moore, you are up.

     TESTIMONY OF JOCELYN MOORE, EXECUTIVE VICE PRESIDENT, 
 COMMUNICATIONS AND PUBLIC AFFAIRS, NATIONAL FOOTBALL LEAGUE; 
 LES BERNAL, NATIONAL DIRECTOR, STOP PREDATORY GAMBLING; SARA 
   SLANE, SENIOR VICE PRESIDENT OF PUBLIC AFFAIRS, AMERICAN 
GAMBLING ASSOCIATION; JON BRUNING COUNSELOR, COALITION TO STOP 
ONLINE GAMBLING; AND BECKY HARRIS, CHAIR, NEVADA GAMING CONTROL 
                             BOARD

                   TESTIMONY OF JOCELYN MOORE

    Ms. Moore. Chairman Sensenbrenner, Chairman Goodlatte, 
Ranking Member Nadler, Ranking Member Jackson Lee, and members 
of the committee, thank you for the opportunity to testify in 
the wake of the Supreme Court's ruling on the Professional and 
Amateur Sports Protection Act, or PASPA.
    While we respect the Court's ruling, it has ushered in a 
new reality. The absence of clear sports betting standards 
threatens the integrity of our Nation's sporting contest, 
something Congress has sought to protect for nearly 60 years. 
In the majority opinion, Justice Alito wrote: Congress can 
regulate sports gambling directly, but if it elects to do so, 
each State is free to act on its own. To protect consumers, we 
urge Congress to immediately create new standards for legalized 
sports betting.
    Since the Supreme Court's decision, State governments are 
rushing to promote sports betting. And we are witnessing a 
regulatory race to the bottom. There is no greater priority for 
Commissioner Goodell than protecting the integrity of our 
sport. NFL fans, players, and coaches should know that we are 
committed to ensuring no improper influences affect the game.
    We recently republished our longstanding gambling policies 
and retrained nearly 10,000 individuals league-wide in the wake 
of PASPA, in players, coaches, officials, medical staff, and 
game day personnel. The training reinforces that everyone 
associated with the NFL is a steward of game integrity, and 
must uphold high ethical standards.
    We remind everyone, NFL policies ban improper influences 
such as protecting nonpublic information about player status 
and game plans, and prohibiting otherwise legal gambling 
associations to avoid even the appearance of impropriety. Yet, 
we are very concerned leagues and States alone cannot fully 
guard against the harms Congress has long associated with 
sports betting.
    As Congress recognized, when it enacted PASPA, sports 
betting issues cannot be confined within State lines. Since 
then the internet has significantly compounded these issues. 
Sports betting remains an internet question--an interstate 
question--excuse me, requiring a Federal response.
    Therefore, the NFL is calling upon Congress to, one, ensure 
a sports betting framework with substantial safeguards for 
consumers. Two, provide law enforcement tools to protect fans 
and penalize bad actors. And, three, protect league consent and 
intellectual property. To protect consumers and game integrity, 
we recommend Federal legislation, establish criteria for State 
regulatory entities, enforce age limits on sports betting, 
require use of official league data, preclude risky betting 
fixtures, prohibit insider and high risk sports betting, and 
include responsible gambling resources.
    We also believe Federal legislation should include strong 
enforcement provisions to eliminate the illegal market. It has 
long been a core argument advanced by gambling proponents that 
legal sports betting will bring illegal activity into the 
light. It is unlikely the mere existence of a legal market 
will, on its own, minimize the illegal market.
    Participants in the illegal market are comfortable using 
it, may receive better odds, and can avoid paying taxes. We 
believe eliminating illegal gambling requires active monitoring 
and enforcement backed by significant civil and criminal 
penalties. While State regulators clearly have an important 
role post-PASPA, the Federal Government has primary authority 
regarding interstate commerce, interstate law enforcement, and 
international sanctions against corruption and money 
laundering.
    Therefore, we recommend Federal legislation require 
operator licensure and auditing, facilitate ease of information 
sharing between leagues, operators, and law enforcement, and 
combat domestic and international money laundering, tax 
evasion, and corruption.
    Finally, league content and intellectual property need 
protection. We ask Congress to ensure our marks, logos, and 
intellectual property cannot be used without consent. Our 
nationally and internationally broadcast games are widely 
available for fans to enjoy. Unfortunately, this also means our 
product is widely available for unofficial data providers to 
potentially abuse.
    Consumers who choose to place wagers should know data is 
timely, accurate, consistent across markets, which can only be 
assured if the data comes from sports leagues or their 
licensees.
    In closing, the NFL is not advocating for a sweeping 
expansion of Federal law at the expense of State sovereignty. 
We are asking for core standards to protect the integrity of 
our game, and by extension, millions of fans who are your 
constituents. Nearly 30 years ago, former Senator Bill Bradley 
warned, State-sponsored sports betting could change forever the 
relationship between players and the game and between the game 
and fans. Sports will become the gamblers' game and not the 
fans' game, and athletes will become roulette chips.
    Congress' longstanding commitment to protect to integrity 
of American athletics is deeply rooted. You have been our 
essential partner, and we are asking you to partner with us 
once again. Thank you.
    Mr. Sensenbrenner. Thank you, Ms. Moore.
    Mr. Bernal.

                    TESTIMONY OF LES BERNAL

    Mr. Bernal. Good morning. Good morning. My name is Les 
Bernal and I am the national director of Stop Predatory 
Gambling, which is a national government reform network of 
individuals and organizations from across the U.S. I am also a 
parent and a former high school and college mens' basketball 
coach.
    We believe in improving people's lives with compassion and 
fairness. We believe everyone should have a fair opportunity to 
get ahead. And we believe every person's life has worth and 
that no one is expendable. And because of what we stand for, we 
are one of the most politically diverse organizations in the 
country, one in which conservatives and progressives work side 
by side to improve the common good.
    The leaders of all political stipes agree that improving 
opportunity and mobility out of poverty is one of the defining 
challenges of our time. Around 50 percent--50 percent of the 
U.S. population has zero net wealth, meaning their debts equal 
their assets. Yet, one of the major sources of this serious 
situation has been ignored for too long.
    The American people are expected to lose $118 billion of 
their personal wealth to government--government sanctioned 
gambling in 2018. Many of these citizens suffered life-changing 
financial losses. If Congress doesn't take action when it comes 
to gambling, then the American people are on a collision course 
to lose more than $1 trillion of wealth to government 
sanctioned gambling over the next 8 years.
    Adding sports betting onto the mix is going to make these 
financial losses even more severe. So what makes gambling 
different than any other--every other business or commodity, 
including those vices like alcohol and tobacco, is that 
gambling is a big con game. Citizens are conned into thinking 
they can win money on games that are designed in the end to get 
them fleeced. And that is true for sports gambling as well.
    If you pay for a book, a glass of wine, a ticket to a 
sporting event, that is what you receive in return. In 
commercialized gambling, what you receive is the lure that you 
might win money in a game that the math is stacked against you 
and inevitably is you are going to lose in the end, especially 
if you keep gambling.
    So let people gamble, you might say. You know, if they want 
to gamble, go do it. Well, one can be a libertarian on this 
issue, while at the same time believing that we can cross an 
unacceptable ethical line when we go from allowing individuals 
to gamble to allowing our government to set up a massive 
marketing and distribution scheme urging people to do so.
    So lobbyists for sports gambling and those who have a 
vested financial interest in gambling, they like to talk a lot 
about illegal gambling. So presently in the United States there 
is no illegal gambling operator that is putting liens on the 
homes of citizens to collect gambling losses, like legal 
operators do. There is no illegal operator who is sending free 
gambling wagers by direct mail to your constituents to lure 
them to gamble, like the legal operators are doing today.
    There is no illegal operator pushing $50 scratch tickets 7 
days a week in the poorest communities of our country, like 
State lotteries do. And there are no illegal operators running 
gambling ads during live broadcasts of sporting events with 
such intensity, that one out of every five ads is to place a 
bet, which is what some of the legal sports gambling operators, 
who are maneuvering here in the United States, are doing in 
places like the United Kingdom.
    There is no illegal operator sponsoring pro sports teams 
which involves team uniforms emblazoned with the names of 
gambling companies on them. Stadium and arena surfaces where 
continuous gambling ads surround the game itself, like the 
legal operators do in the United Kingdom, those same legal 
operators that are trying to come into the United States.
    So State governments are often called laboratories of 
democracy. You know, that is where the vibrancy of democracy 
occurs at the State level, supposedly. But over the last 30 
years, the record is clear, that when it comes to gambling 
policy here in America, States are laboratories of fraud, 
exploitation, and budgetary shell games. So public officials 
and opinion leaders who profess a desire to improve opportunity 
and to alleviate poverty often lament how few levers they have 
to pull to make such change happen.
    Lever number one, needs to be stop turning tens of millions 
of Americans who are small earners, who could be small savers, 
and stop turning them into habitual betters. Thank you.
    Mr. Sensenbrenner. Thank you very much.
    Ms. Slane.

                    TESTIMONY OF SARA SLANE

    Ms. Slane. Chairman Sensenbrenner. Ranking Member Jackson 
Lee, and members of the subcommittee, thank you for the 
opportunity to testify today.
    AGA strongly supports the Supreme Court's recent decision 
to overturn the Professional and Amateur Sports Protection Act. 
We believe legal transparent sports betting regulated by States 
and tribes is a better system than the previous Federal ban 
that provided zero protections for consumers and sports 
integrity, and zero tax revenues for governments at all levels.
    Transforming the illegal underground sports betting market 
into an open legal one under State and tribal regulatory 
oversight will accomplish five critical public policy goals.
    First, it will give consumers the choice to opt-out of the 
legal regulated market versus an illegal one. Second, it will 
increase transparency giving State and tribal regulators the 
power to oversee betting. Third, it will protect consumers by 
ensuring that sports betting is fair, safe, transparent, and 
accountable. Fourth, it will enhance game integrity by 
providing regulators, sports leagues, and law enforcement with 
the technology, insight, and tools they need to monitor, 
identify, and shut down any suspicious or illegal activity. 
Fifth, it will generate jobs and tax revenues, giving 
communities new ways to boost local economies.
    Fortunately, States and tribes already have the regulatory 
infrastructure in place to make legal sports betting safe and 
successful. Forty States currently have either commercial or 
tribal casinos, and every State in the country has some form of 
gaming, other than Utah and Hawaii. Because of the active 
robust State and regulatory tribal gaming oversight, gaming is 
one of the most strictly regulated industries in America.
    Right now, over 4,000 gaming regulators with budgets that 
exceed $1.3 billion oversee the gaming industry. And, of 
course, sports betting has been legal in Nevada for 50 plus 
years. Because of this strong regulatory infrastructure, the 
transformation of sports betting into a legal, open, 
transparent market is already taking place.
    Since the ruling, Delaware, New Jersey, Mississippi, and 
West Virginia have joined Nevada as States that now allow 
single game betting on sports. Pennsylvania, Rhode Island, and 
New York have also enacted legislation to permit sports 
betting. Even before the PASPA ruling, 18 States were 
considering legislation to legalize and regulate sports 
betting.
    Further, our industry has been working in partnership with 
other stakeholders, including the leagues and team owners. 
Multiple contractual deals have been reached, including the 
MBA, the Dallas Cowboys, and the Las Vegas Golden Knights. 
Therefore, there is no need to legally mandate financial terms 
or the official data purchase in statute, as some professional 
sports leagues have proposed, when it can be done via contract.
    As sports betting is a low margins business, these policies 
will increase cost on legal sports books, thereby empowering 
the illegal operators to offer better paying and more 
competitive odds. Of course, sports betting, like all other 
forms of casino activity, will be regulated at the Federal 
level under the strict requirements of the Bank Secrecy Act. We 
already work in close partnership with the U.S. Treasury 
Department, specifically, the Financial Crimes Enforcement 
Network, to ensure strict adherence to anti-money laundering 
and know your customer regulations.
    Furthermore, laws such as the Illegal Gambling Business Act 
and prohibitions on bribery and sporting events give Federal 
law enforcement tools to address illegal gambling and match 
fixing. Beyond operating under this web of regulatory 
protections, AGA and its members are taking additional action 
to ensure sports betting takes place in a safe and successful 
environment for our customers.
    In addition to the $300 million our members contribute to 
our responsible gaming programs, we are active in the 
prevention of underage gambling, training of employees, 
prevention, treatment, research, and public awareness programs 
aimed at fighting problem gambling and providing help to those 
who struggle with addiction.
    Given this vast experience successful State and tribal 
regulatory infrastructure, the Federal oversight and laws 
already in place and the partnerships we are driving with the 
leagues and team owners, AGA does not believe an additional 
layer of Federal regulatory oversight is needed at this time. 
Just as Congress has refrained from regulating lotteries, slot 
machines, table games, and other gambling products, it should 
leave sports betting oversight to the States and tribes that 
are closest to the market. And, further, there is no need for 
the Federal government to oversee the private contractual 
negotiations that are already occurring between the casino 
industry and the leagues and the owners.
    The bottom line is, with such robust and rigorous 
regulatory oversight at both the State and Federal levels, 
there is no need to overcomplicate or interfere with a system 
that is already working.
    AGA is committed to continuing a constructive dialogue on 
sports betting with all stakeholders, and I look forward to 
your questions. Thank you.
    Mr. Sensenbrenner. Thank you, very much.
    Mr. Bruning.

                    TESTIMONY OF JON BRUNING

    Mr. Bruning. Chairman Sensenbrenner, Chairman Goodlatte, 
Ranking Member Nadler, members of the committee, thank you so 
much for inviting me here today and hosting this hearing on a 
critical issue.
    Through court decisions and DOJ legal opinions, the Federal 
Government has effectively abandoned the playing field. 
Chairman Goodlatte, you mentioned the law you worked so hard 
on, UIGEA, it is not being enforced, it is not working. And it 
is not working because it is not being enforced.
    In short order, Congress has to act. So I am Jon Bruning. I 
am the managing partner of Bruning Law Group. I served as 
Attorney General of Nebraska for 12 years, and I am here to 
bring a law enforcement perspective to this sports betting 
discussion. So please allow me to make three points.
    First, sports betting is a low margin venture. It doesn't 
return meaningful tax revenue to the States. Illegal offshore 
sites, local bookies don't pay taxes, they don't have 
compliance costs, they don't report their winnings to the IRS. 
And to the extent States tax sports betting, it is going to 
drive even more gamblers to these illegal operations.
    In response, second, to the court's decision in PASPA, 
Congress has to enact legislation to protect citizens to 
preserve the rights of States that don't authorize sports 
betting and to combat criminal activity, and that effort is 
bound to take years and not months. And my third point. While 
Congress sorts through these issues, the Federal Wire Act needs 
to be restored. It and other Federal gambling statues need to 
be enforced to prevent and prosecute illegal online gambling 
operations.
    Now, of course, States can regulate brick and mortar 
casinos, they do it well, like my friend, Chairwoman Harris 
here in Nevada, some of them are exceptional because they have 
been doing it since the late 1940s. But those who say there is 
no need for a Federal role in the regulation of online gambling 
need only to look to the challenges faced by States in 
legalizing marijuana without Federal assistance.
    California's revenues, for example, are a third less than 
projected because it is easier and cheaper to buy illegal 
marijuana. Colorado and Oregon are struggling with banking 
environment food safety issues and they are now asking Congress 
for assistance with all of those. For States like mine in 
Nebraska where marijuana is illegal, law enforcement has been 
overwhelmed with marijuana flooding into the States, and we are 
left with no recourse against the States enabling this illegal 
activity. So the same problem is going to happen with online 
sports betting.
    Except Nebraska law enforcement is not going to try to stop 
cars on the interstate, they are going to be forced to pursue 
online gambling companies with no physical presence in our 
State. So how does an attorney general, like I used to be, 
prosecute an illegal online gambling company? What do you do? 
Do I send an investigator to the Cayman Islands? I don't think 
so. Under what authority? Is an attorney general going to be 
investigate and prosecute in a foreign country?
    So online gambling, it is uniquely susceptible to abuse by 
criminal organizations. DOJ itself said that internet gambling 
carries a potential for fraud and money laundering, and the 
involvement of organized crime. The FBI said it may be 
vulnerable to a wide array of criminal schemes. It could be 
used to launder money and could even be used to engage in 
public corruption, or maybe even used by a terrorist 
organization.
    Illegal online casinos, including those operated by 
organized crime have every profit incentive to take advantage 
of consumers. And when it comes to illegal offshore sites, 
States simply do not have the legal authority or the resources 
to protect our citizens from these criminal ventures. We don't 
have the resources to prevent our residents from migrating to 
these illegal offshore books, which oftentimes, by the way, 
manifest themselves in a website on a phone. That is how people 
are going to their bookie in 2018.
    Indeed, there is some doubt whether even Federal 
authorities have the resources to police online gambling. Since 
1961, the Wire Act has prohibited all gambling involving 
interstate telecommunications, including online gambling. In 
December 2011, the USDOJ claimed that the Wire Act applied to 
sports betting, not to other types of online gambling. That was 
DOJ. That wasn't you, Congress, you had already said what you 
wanted to say with UIGEA.
    Now, that opinion is flawed, obviously, it is wrong in its 
conclusion. And even under that opinion, the Wire Act still 
applies to sports betting. So that means if sports books that 
want to hedge their risk by establishing a national pool or 
create interstate compacts or lay out bets across State lines, 
they are all going to do so in violation of the Wire Act, if 
Federal authorities want to act.
    But Congress is going to have to, because the Federal 
government has shown that it is not acting. It is going to be 
up to you to protect States that don't authorize sports 
betting. To protect the most vulnerable among us, particularly 
kids who have access to phones and sometimes mom and dad's 
credit cards. If there is any doubt that that is what will 
happen, I urge you to look at my written testimony where I 
identify a host of U.K. studies discussing the predatory nature 
of online gambling on U.K. kids, and my friend, Mr. Bernal 
talked about those as well.
    The issues created by the Supreme Court's decision are 
complex, it is going to take time for Congress to work through 
the issues to establish some Federal guardrails. In the 
meantime, illegal gambling operations should not be permitted 
to feast on American citizens in the interim. That is why the 
Wire Act must be restored and Federal gambling laws enforced 
against illegal operators. Thank you, Mr. Chairman.
    Mr. Sensenbrenner. Ms. Harris, your bet and clean up.

                   TESTIMONY OF BECKY HARRIS

    Ms. Harris. Thank you, Mr. Chairman, Ranking Member Jackson 
Lee, and members of the subcommittee. Good morning. I am Becky 
Harris, the chairwoman of the Nevada Gaming Control Board. I 
have a lot to say. I will probably speak a little quickly.
    Nevada has over 6 decades of experience regulating sports 
betting and has invested significant resources into our robust 
and seasoned regulatory structure. You have received Nevada's 
statutes, regulations, licensing internal controls, and some 
Nevada's sports books specific financial transaction reporting 
forms.
    Every company that conducts wagering in Nevada is subject 
to strict licensing investigations to ensure that the company 
itself and the individuals associated with it are of the 
highest quality. Wagers of all types, including sports wagers 
are only taken under the strictest of State government 
controls.
    Nevada imposes strict audit and accounting requirements on 
our licensees. Our sports betting systems document each wager 
received, every win paid out, results of events, and changes in 
odds. Sports books must also maintain a bond that guarantees 
payment of wagers, and surveillance requirements are imposed 
where sports wagers are offered.
    Nevada has considerable consumer protection processes. When 
disputes arise, an investigation is conducted. We have a 
hearing and adjudication process that is provided at no cost, 
regardless of where the patron resides around the world. Please 
allow me to share with you what Nevada considers to be critical 
to legalized regulated sports betting.
    First, integrity in gaming is absolutely critical. Sports 
betting scandals are more likely to occur in illegal markets 
where there is no regulatory responsibility, where monitoring 
betting patterns is of no concern and where line movements may 
not matter. Nevada's sports books closely monitor fluctuations 
in betting activity as possible indications of integrity 
problems.
    On many occasions, Nevada sports books have been the first 
to identify suspicious betting activity and alert law 
enforcement agencies and sports organizations. Our sports book 
operators decline bets that are placed on behalf of others for 
compensation, set limits on the amount of action they will 
accept on a particular game, and can take a game off the board 
if unusual betting activity is occurring.
    Second, States are in the best position to regulate sports 
betting. Nevada takes the view that States are the best 
equipped to regulate sports betting within their own borders. 
It is a responsibility that Nevada takes seriously and performs 
with fidelity. Federal regulation would only add unnecessary 
cost, delay the licensing process, increase taxation, and 
create additional complications.
    Third, it is imperative that jurisdictions embarking on 
legalized sports betting understand the impact tax rates have 
on both the legalized regulated sports betting market and the 
illegal sports betting market, and that includes fees. To 
foster a robust and healthy legal sports betting market, State 
and Federal tax structures must be reasonable. Additional fees, 
especially when they are taken from a sports book handle, only 
serve to facilitate offshore illegal gambling operations by 
making legal betting products that much more expensive. You 
have received a chart outlining how additional fees would 
impact Nevada sports bowl--or Nevada's Super Bowl right and win 
for the past 27 years.
    Fourth, combating illegal operators is and will be an 
ongoing reality regardless of any Federal legislation. The 
board's 90 sworn peace officers currently with and will 
continue to assist other jurisdictions, including Federal law 
enforcement agencies. The best way to eradicate illegal 
activities is through coordinated and productive law 
enforcement efforts. Sharing information relating to suspicious 
betting activities with other jurisdictions will help eradicate 
illegal book making operations, and is something Nevada books 
do now.
    Make no mistake about it, illegal book makers don't worry 
about complying with regulations, paying taxes, establishing 
reserve accounts, or providing responsible gambling materials.
    Fifth, sports wagering technology must demonstrate and 
maintain the highest standards of integrity, accountability, 
and regulatory compliance. What many of the new sports betting 
jurisdictions take for granted, Nevada has developed and 
refined for decades.
    Sixth, new jurisdiction should create a mechanism to 
address the challenges that arise for those unable to gamble 
responsibly. Providing resources for those who struggle with 
addiction or the inability to limit gambling is important. You 
have packets from the Council from Nevada on problem gambling.
    Seventh, a forum for stakeholders to come together to 
discuss issues of mutual concern. I have been working with UNLV 
for quite some time to establish a U.S. regulated sports 
betting forum where stakeholders, regulators, law enforcement, 
sports organizations, tribal leaders, and others will have an 
opportunity to communicate across jurisdictions to discuss 
problems of mutual concern, and put into place thoughtful 
solutions crafted from diverse experience.
    Sports betting will continue to grow and evolve. As my 
predecessor once said, we have been in this business for 
decades and haven't had any problems. What we have here is a 
regulatory process specifically to monitor what happens on both 
sides of the counter. This is all we do, and we are good at it. 
I have to concur.
    Thank you for giving me the opportunity to present this 
information to you today.
    Mr. Sensenbrenner. I would like to thank you all of the 
witnesses for very interesting and enlightening testimony from 
five different perspectives. And this will be very helpful as 
we start out dealing with this issue.
    I will yield myself 5 minutes to begin the questioning. 
And, Ms. Slane, I would like to talk to you first. I am a great 
believer that the market works. You have stated that if there 
is an expanded legal sports book, it is going to drive away 
betting from the illegal sports books. Let's look at what the 
illegal sports books offer. They don't ask for an ID. Many of 
them don't ask for money up front. If you strike it rich, they 
don't talk to the IRS. So the IRS doesn't get a 1099-G report. 
And sometimes they offer even better odds.
    Now, if I were running around with a fistful of money that 
I wanted to bet, where would I go when the illegal sports book 
is offering all of these other goodies that a legal sports book 
cannot?
    Ms. Slane. You hit the nail on the head. I don't think any 
panelists that is sitting here today would not agree that this 
is a race against the illegal operators that are out there 
right now that don't pay taxes, that don't care about 
consumers, that have no regulatory oversight or protections. We 
are in a highly regulated industry. We are licensed. We 
privileged with that license. If we do anything wrong, that 
license can be pulled by our gaming regulators.
    We have a commitment and responsibility to those consumers 
that we employ that are in our communities. We want to make 
sure that this is done in a safe way. Sports betting is a low 
margin business. So in order for us to compete with the illegal 
market, there have to be the policies in place that enable us 
to do that, offer competitive odds, and drive traffic to our 
legal regulated----
    Mr. Sensenbrenner. Again, I get back to the point that the 
market works. And, you know, if I want to strike it rich and I 
get better odds, and the IRS doesn't know that I struck it 
rich, you know, why am I going to go to a legal sports book 
when I can put my money, you know, at more risk by going to an 
illegal one?
    Ms. Slane. In surveying and looking at those people that 
are participating in illegal activities, 70 percent of them do 
want to move from the illegal market to the legal regulated 
one, but we cannot as legal regulated operators be hamstrung, 
so we have to have those policies in place.
    Again, can't have overburdensome tax rates. Can't have an 
additional layer to oversight or regulation that then impugns 
us from completing with those illegal operators that are able 
to offer better paying odds.
    Mr. Sensenbrenner. Okay. Thank you. Now, Mr. Bruning, I 
have read your data about online gambling in the United 
Kingdom, and particularly online gambling by kids. You know, 
every kid their most prized possession is their smartphone, it 
is not their driver's license anymore when you and I were 
growing up, but it is the smartphone. And we see in the U.K. 
over half of 16 year olds have gambling apps on their phones.
    Two out of three of those teens say they are bombarded by 
online gambling advertisements. And in one case that you put in 
your testimony, one 13-year-old somehow got a hold of dad's 
credit card and ran up a $140,000 bill for gambling losses in a 
matter of days because he was watching his favorite soccer 
team, which must not have been very good if he did all that.
    How are we going to be able to regulate this, given the 
fact that the internet isn't regulated. And we, you know, end 
up seeing all kinds of ads, including ads that urge young 
people who are over 18 to vote for Jim Sensenbrenner in a few 
weeks, how do we deal with that?
    Mr. Bruning. Mr. Chairman, it is a great point. I mean, 
imagine that company, it is Betfair, imagine they decide to 
target 15 year olds in the Milwaukee area, right now, which you 
can do with geo-locating, and they start to target them for 
online gambling. The imagine the Attorney General of Wisconsin, 
Brad Schimel, and Brad says, this is wrong, when he talks to 
you, and he says, Congressman, this is wrong, we are going to 
do something about it. Let's go get Betfair, which is housed in 
the U.K. Now what is the next step the attorney general is 
going to take? There isn't one, that is the problem. We need 
Federal oversight. We had it with UIGEA, it is not being 
enforced. Congress needs to act. That is why we are urging that 
the Wire Act be restored, UIGEA enforced, and Congress begin to 
have the a year's long discussion of what that Federal 
oversight is going to look like.
    Mr. Sensenbrenner. Well, my time is just about up, you, 
know. Let me say that when Brad Schimel gets frustrated, he is 
going to call me up or see me at some kind of a political event 
and start shaking his finger at me, and pointing at me. So that 
means we do have to act.
    The gentleman from New York, Mr. Nadler.
    Mr. Nadler. Thank you, Mr. Chairman. Mr. Chairman, before I 
begin, I forgot to ask unanimous consent to put two documents 
into the record. The Sports Bettor's Bill of Rights from the 
Sports Fans Coalition. And anybody from Sports Fans, I would 
hope that we put it in the record. And the statement, for the 
record, submitted with a poker face by the Poker Alliance.
    Mr. Sensenbrenner. Without objection.
    Mr. Nadler. Thank you, Mr. Chairman. Mr. Bernal, let me ask 
you first. I am very troubled by this whole subject. The first 
thing I ever did politically was write a paper for a New York 
City mayoral candidate years ago in which I recommended to him 
that he take a position against the establishment of off track 
betting because I found, after research, that in every State 
which had adopted off track betting, including some which 
adopted it, repealed it, came back again, every indication of 
social pathology went up.
    So on one hand that is a good argument--that is an 
argument, I shouldn't say good argument, I don't know, it is an 
argument against legalized gambling. On the other hand, you are 
going to have illegal gambling, and you can't--you really can't 
stop illegal gambling, we know that. So how do you balance 
this?
    Mr. Bernal. So the way you balance it is you take 
government out of the business of profiting from gambling. So 
right now in your State of New York, it is one of the biggest, 
most active gambling States in the country. You got----
    Mr. Nadler. New York City off track betting was abolished 
because it wasn't----
    Mr. Bernal. So your paper that you wrote was right on the 
mark. That thing was dead on arrival. Gambling at its core, it 
is a con. So when you say people are going to be doing illegal 
gambling throughout history, that is true. People are going to 
always have the urge to gamble, but the role of government, 
whether you are-regardless of your political stripes, is not to 
go out and encourage citizens to gamble.
    So what happened when New York legalized its lottery, it 
first started, it was no advertising, and then it wanted more 
money. We need more money to pay for education or whatever it 
may, they started advertising it over and over again. Now you 
got casinos across your State and now they are trying to bring 
in online gambling----
    Mr. Nadler. So we should legalized gambling but not 
promotion by the State?
    Mr. Bernal. If you want to allow gambling in small licensed 
games, take the government out of it, eliminate the aspect of a 
house, and then take--especially eliminate the marketing and 
gambling of advertising by government in its partnership with 
these big powerful gambling organizations. If you did that, the 
urge, the incentive for people to gamble would dissipate. We 
have normalized gambling for our generations of people today.
    Mr. Nadler. I hear you. You does anyone want to refute what 
he just said?
    Ms. Slane. I don't--I think that by taking out the 
regulatory oversight and structure that allows you to go after 
that operator if they are inappropriately targeting people who 
have addiction problems, does not make a whole lot of sense to 
me. So, I mean, I have a book right here----
    Mr. Nadler. We should allow--I am sorry, we should allow 
inappropriate----
    Ms. Slane. I am saying that by removing--by having legal 
regulated gaming and an oversight body and structure, you can 
work with the operators to make sure that those consumers that 
should not be betting are not betting. You have the authority 
then to----
    Mr. Nadler. I understand. I get the argument. Mr. Bruning.
    Mr. Bruning. Congressman, if I may, online gambling is a 
whole different animal. Chairwoman Harris and the AGA, their 
members are excellent at identifying somebody that walks into a 
facility, is that a problem gambler, they are looking at it via 
facial recognition. They have staff that has techniques to 
determine. Are they impaired by drugs or alcohol. Is it 
somebody that is asked to be banned. That is at a facility. 
Online it is a whole different thing.
    Mr. Nadler. Harder to regulate.
    Mr. Bruning. Kids push a button and say, I am 18. They 
might be 14. Like the story in the U.K. Kids grab dad's credit 
card, say, I am Jon Bruning, I am 49 years old. They punch in--
my 19-year old could do that. My wallet is laying there, I am 
taking a nap on Sunday afternoon. It is happening all around 
the country, and it is a real risk if Congress doesn't act. 
That is why we are here asking you to act on the online 
portion.
    Mr. Nadler. How would Congress prevent that?
    Mr. Bruning. Through Federal authorities, making sure that 
a company like Betfair in the U.K., only through Federal 
intervention are we going to hold Betfair accountable. It is 
very difficult for an attorney general in Nebraska or even New 
York, I worked with several of your attorneys general, even in 
a State with that kind of resources, it is still very hard to 
hold a foreign enterprise accountable. But the Federal 
Government, there is more resources available, we have done it 
in the past.
    Ms. Harris. Mr. Nadler, I would interject that when you 
remove the regulatory structure with all of its inherent 
capacity and different tools and levers to exercise influence 
over a licensee, you are going devolve into a situation that is 
no better unregulated gambling.
    At the Nevada Gaming Control Board, my licensees have 
privilege licenses, which mean they don't have a right to get 
them and they don't have a right to retain them. When they 
cross the line or they act in inappropriate ways, the board has 
the ability to discipline and recommend disciplinary 
proceedings to the commission who ultimately make the decision.
    Mr. Nadler. And you would say, or you wouldn't say, that we 
need Federal regulation to prevent the States from engaging in 
a race to the bottom?
    Ms. Harris. So I would disagree that we are undergoing a 
race to the bottom right now.
    Mr. Nadler. Not now but maybe next year. No, no, seriously, 
I am asking you.
    Mr. Sensenbrenner. The time of the gentleman has expired. 
The gentleman from Virginia----
    Mr. Nadler. Can she please answer that.
    Mr. Sensenbrenner. Yes, the witness will answer.
    Ms. Harris. I don't think right now is the time for any 
kind of Federal engagement with regard to gambling, I think 
States do a great job in every area, including the new sports 
betting. And we have just begun to see the roll out in other 
States, but Nevada has a comprehensive regulatory structure 
that has been refined over decades, and we have a lot of 
integrity in our process.
    We don't have some of the challenges--and, again, I would 
take issue with the notion that there is some kind of race to 
the bottom with regard to gambling regulations.
    Mr. Nadler. Thank you very much.
    Mr. Sensenbrenner. The gentleman from Virginia, Mr. 
Goodlatte.
    Chairman Goodlatte. Thank you, Mr. Chairman. Ms. Harris, 
let me follow up with that in the context of what Mr. Bruning 
has been talking about. I don't--I agree with you, I don't 
think the Federal Government should get involved in regulating 
traditional forms of gambling that take place on a premises in 
Nevada or any other State, the States should do that. I am not 
a fan of it, but I certainly don't think the Federal Government 
should presume to tell the States they can't do that.
    Online gambling is a whole different animal. Completely 
different. How can you assure me that Nevada, in regulating 
online gambling, can tell whether or not it is a child that is 
placing the bet? How can they tell if the bet is being placed 
within the State of Nevada. Two requirements of UIGEA, Mr. 
Bruning is absolutely right, they are not enforced.
    He is also, in my opinion, absolutely right, that the Wire 
Act, which we tried to modernize about 15 years ago, needs to 
be modernized. And, finally, how do you go after that company, 
legal in Britain, or someplace else, or illegal in another 
country? How do you know to go after them in Nevada?
    Ms. Harris. So I need to unpack what you said. There is a 
lot there in your statement.
    Chairman Goodlatte. There sure is. And you only have a 
minute, because I only have 3 and a half minutes left.
    Ms. Harris. Let me help you understand. In Nevada, we don't 
have a lot of internet gambling. We passed a statute at the 
State level I believe in 2011 to allow that to occur, but there 
has not been a lot of popularity there. We have an interstate 
compact with Delaware and New Jersey with regard to an online 
poker platform to increase liquidity, and that is really where 
we see our online platforms.
    With regard to the protections around minors and making 
sure we know who people are when they sign up for accounts, 
with regard to sports betting, which is what we are talking 
about today, Nevada does not allow for a true remote signup. 
You can begin your account online, but before you can place 
money into your wagering account and you can wager using a 
mobile device intrastate, not interstate, you have to go down 
to a casino and you have to show ID. And you are checked on 
LexisNexis and there are some background requirements that are 
performed to make sure that the person opening the wagering 
account is, in fact, that person and not a minor.
    Chairman Goodlatte. You don't have the ability, do you, in 
Nevada to stop what is going on in the U.K.? The chairman 
pointed out that half of 16-year-olds have gambling apps on 
their phones. Two out of three teenagers say they are bombarded 
by online gambling advertisements. And you are not going to be 
able to stop that from occurring in Nevada, are you?
    Ms. Harris. Well, I believe that through our law 
enforcement agency--I have got 90 sworn peace officers. We work 
with jurisdictions throughout the United States and sometimes I 
believe internationally as well. But that problem exists, and 
what we are hoping for is a partnership in law enforcement with 
the Federal Government.
    Chairman Goodlatte. You don't think it would be a good idea 
to modernize the Wire Act and to go after online gambling by 
doing that and enforcing UIGEA?
    Ms. Harris. I think there are some jurisdictional concerns 
that need to be looked at to determine if, in fact, you can do 
that.
    Chairman Goodlatte. Let me turn to Mr. Bruning, because I 
have sentiment for what he said, but I also have some questions 
about that. You have said the Congress needs to act. And I 
agree, we need to act with regard to modernizing the Wire Act. 
But we did UIGEA. It is not enforced. How does the Congress get 
that enforced?
    Mr. Bruning. Well, that is an excellent question. I mean, 
what you have, of course, is Nevada, which is sort of the top 
tier. And then you have New Jersey that let in PokerStars 
after--PokerStars had been prosecuted several years ago, Mr. 
Chairman, and those--they are still on the lam from that 
prosecution years ago, just sold and made $2 or $3 billion or 
whatever it was. Yet Pennsylvania, that has no effective age 
verification, it is only through Federal enforcement, how do 
you get Federal authorities to act? How do you get DOJ to act?
    Chairman Goodlatte. That is my question. Not only have we 
not been able to get them to act, but in the last 
administration they brought in some folks to the Office of 
Legal Policy at the Department of Justice. They flipped their 
interpretation of the Wire Act, and then they left and went 
back to work for companies or law firms that represent these 
gambling interests.
    Mr. Bruning. It is frustrating, Mr. Chairman. I would hope 
that that opinion from Justice at the time in 2011 was a one-
off. If that were reversed, the FBI was enforcing against 
PokerStars, and they had a prosecution, a conviction back about 
10 years ago. So they were effective in some enforcement.
    Chairman Goodlatte. I am going to take my last 30 seconds 
and ask Mr. Bernal if he wants to add anything to this?
    Mr. Bernal. It is not enforceable. Because when State 
governments have been in the gambling business, the record is 
clear, their objective has been one thing only, and that has 
been to maximize government revenues, not to protect citizens 
and not to promote the public interest. That is the bottom 
line.
    Chairman Goodlatte. That is a Federal ban, though, telling 
all States they can't have----
    Mr. Bernal. I love the way the Congressman said it. 
Congress has to act to stop States from this race to the 
bottom, and that is the only way to describe it. If you go into 
your districts and see these lottery retailers and what is 
happening in your districts, a trillion dollars of wealth is 
going to be lost over the next 8 years by the American people 
to government-sanctioned gambling.
    Chairman Goodlatte. I agree with you, but we have got to do 
what is possible.
    Thank you, Mr. Chairman.
    Mr. Sensenbrenner. The gentleman from Louisiana, Mr. 
Richmond.
    Mr. Richmond. Thank you, Mr. Chairman. And I know that our 
former chairman, Mr. Goodlatte, brought up online gambling, 
which is a different animal. And one of the things I do often 
when I go into a casino is look around, and far too often it 
appears that many of the people in there appear to look like 
they should not be in there and they have the least amount of 
disposable income to lose.
    If we take this to I guess its logical conclusion of them 
having the ability to do it online or in another mechanism, how 
do we prevent them from using a credit card as opposed to a 
debit card? Because all of a sudden, they run up every credit 
card, they are in over their heads with no way out except to 
keep playing until they hit it big.
    So is there a mechanism and has anyone talked about 
distinguishing between credit cards and debit cards. At least 
with a debit card, it has to be in the bank, but in a credit 
card you are just playing with other people's money that you 
eventually have to pay back. And anyone can answer that.
    Mr. Bernal. I will start first. That is the business model 
for commercial gambling. It is to try to get you into debt. 
Specifically when it comes to, you know, online gambling, the 
country of Ireland did the first national report on online 
gambling; and it showed that 70 percent of gamblers in Ireland 
who were participating in online gambling, 70 percent of them 
went into debt to place a bet. So the whole business is about 
getting you to chase your losses and to go well beyond your 
means.
    Ms. Slane. I would add that, again, you get back to the 
fact that this is one of the most heavily regulated industries 
in this country, that we are----
    Mr. Richmond. I am going to cut you off, but not to be 
rude, but just to remind you. The question is, is there a 
distinction between debit and credit cards, and has the 
industry looked at how to prevent credit card use as opposed to 
debit card use? That is just a simple--have you all thought 
about it, are you going to try to address it?
    Ms. Harris. I can talk to you about that in regards to 
sports betting. I have been talking to my sports betting 
operators about this very issue. Credit card companies are 
pretty reluctant to allow transactions to casinos, and there is 
a daily limit imposed by credit card companies with regard to 
any kind of funding into an account wagering account.
    In Nevada, typically what we do is we use companies that 
are a prepaid credit card type item. And so people who want to 
gamble can put a set amount of money on that card, and then 
those cards are used in those transactions to make sure that 
there are some limits and some parameters around sports 
betting. So yes.
    Mr. Richmond. And I am throwing it out there, because that 
is just one of my concerns. And I have been following one way 
or the other on this issue.
    The other thing that I would note and I would like to 
introduce for the record, the one team report, which is 
testimony of the National Football Players Association and all 
the athletes that are part of this and I believe a stakeholder 
in this conversation.
    Mr. Sensenbrenner. Without objection, the material will be 
included in the record.
    Mr. Richmond. And I guess I would talk to Ms. Moore. You 
can only speak for the NFL, but have all the I believe 
stakeholders been involved in this process? And when I mean 
stakeholders, I am not just talking about the football players 
that go out there and play every day.
    I am talking about the referees who now every call is 
overly scrutinized, and you have someone at home and could have 
very real mental health challenges. And in this day and age 
with, I mean, our addresses are online. Everything is 
available.
    So have we talked to the referees, the players, the 
coaches, the GMs about how they feel about it, because I am 
just curious what they would have to say?
    Ms. Moore. Congressman, thank you for that question. Yes, 
we have. As I alluded to in my testimony, we have had a 
longstanding gambling policy which prohibits a lot of activity. 
There are specific limitations for all of the individuals that 
you mentioned. Not just sports betting, but gambling writ 
large.
    And so recently, we retrained 10,000 league personnel and 
individuals affiliated with the league. So that is all of our 
stakeholders. Players, coaches, GMs, owners have participated 
in that training, to make sure that everybody not only is aware 
that the Supreme Court has made this decision but, again, 
underscoring our primary concern since our existence started, 
which is the integrity of our game.
    Mr. Richmond. Well, very quickly, do you know that if all 
the major league--all the professional leagues have banned 
owners from owning or having an interest in any online sports 
betting establishments?
    Ms. Moore. I can only speak for the National Football 
League, and we do have a limitation. I can't speak for the 
other professionals.
    Mr. Richmond. A limitation or ban?
    Ms. Moore. We have a limitation. And that is on gambling, 
any type of gambling. It is not specific to sports betting.
    Mr. Richmond. But they cannot have an ownership interest, 
so it is a ban.
    Ms. Moore. It is a limitation.
    Mr. Richmond. I don't understand the difference. Mr. 
Chairman, can I at least get that difference explained?
    Ms. Moore. There is de minimus interest, Congressman. So it 
is a limitation.
    Mr. Richmond. Got it. Thank you.
    Mr. Sensenbrenner. May I ask a question. De minimus 
interest is if you are a shareholder in the Green Bay Packers? 
There are 300,000 of them.
    Ms. Moore. I think the Green Bay Packers is a little bit 
different, based on their structure. But de minimus interest is 
de minimus. It is--yes.
    Mr. Sensenbrenner. The gentlewoman from Florida, Mrs. 
Demings.
    Mrs. Demings. Thank you so much, Mr. Chairman, and thank 
you to all of you for being here with us today. I would like to 
talk a little bit about preserving the integrity of the games. 
And I would like to get your opinions on so-called integrity 
fees. And anyone can start.
    Ms. Moore. Congresswoman, if I could start, there is no 
greater priority for the commissioner than protecting the 
integrity of our game. We have worked for--with Congress for 
nearly 60 years on this topic. There is a group of Federal laws 
that we believe have been essential to protecting the integrity 
of our game. PASPA is one of those.
    And so as we go forward, we believe that the Federal 
Government is the only entity, for all the reasons that have 
been identified by the panelists, that can protect the 
integrity of our game. Despite----
    Mrs. Demings. As opposed to the State level.
    Ms. Moore. As opposed to the State level. And, again, we 
are asking for core Federal standards. We are not asking for 
sweeping Federal legislation. What we are saying is there are 
things that everybody should be able to agree with. And while 
there are low margins in gambling, the risk to professional 
athletics and amateur athletics is extremely high.
    Ms. Slane. I would add two points to that. So this is where 
I could not say that we are more aligned with the leagues in 
promoting the integrity of the game. I would also add that we 
are committed to promoting the integrity of the bet. So making 
sure the consumers, when they are participating in the legal 
regulated market, they are placing a bet in a safe and secure 
way.
    You had asked about integrity fees. Namely, this was 
introduced by some of the leagues. They wanted to take 1 
percent, which actually equated to 20 percent of revenue, off 
the top.
    It goes back to what the chairman said at the beginning of 
this. In order for us in the legal regulated market to compete 
with the illegal operators, we have to be able to offer odds. 
We have to be able to offer bets. You want to move those 
consumers to the legal regulated market.
    Everything that is happening in the illegal market, there 
is not going to be any promotion of integrity. There is not 
going to be any recourse if a consumer is unfairly targeted. 
There is not going to be--if they are processing credit card 
payments, which currently our operators are not allowed to do, 
there is no backlash to that.
    So we 100 percent agree with the leagues that the integrity 
of the game is of utmost importance and as is the integrity of 
the bet.
    Ms. Harris. Chairwoman--or Congresswoman, I would like to 
chair with you----
    Mrs. Demings. I like the chairwoman part, by the way.
    Ms. Harris. Maybe one day. I would like to share with you a 
little bit about how things have impacted Nevada, particularly 
with regard to that 1 percent fee that has kind of been thrown 
around.
    As the conversation has unfolded, I need you to understand 
a little bit about the way taxes are collected versus the way 
that the leagues are talking about implementing that fee. They 
are actually arguing that that fee should come off Superbowl 
right, which would be more than double the amount that the 
State of Nevada actually gets to collect in taxes, because we 
only collect taxes off of win. In other words, how much the 
casinos retain after all bets are paid.
    And for Nevada, over a 27-year timeframe, that is about a 
13.7 percent amount of Superbowl rights. And we are just 
talking about the Superbowl in the graphic that I provided to 
the committee as opposed to a 6.75 percent tax rate for the 
State of Nevada. So, in real numbers, that 1 percent fee just 
off of the Superbowl right would be $24 million, while taxes to 
the State of Nevada would only be 11.
    And so you really have to look at the fine points of when 
we have these global conversations around integrity. Nobody 
wants integrity in gambling more than the State of Nevada. We 
have spent a lot of years, over six decades ensuring that there 
is integrity in our process.
    And I have personally sat down with different sporting 
associations to talk to them about things that they can do 
internally to help provide for integrity within their own 
structure and organization to make sure that, on the player 
side and on the sporting side, there is integrity in that 
process as well.
    Mrs. Demings. If we could pivot a little bit to--you know, 
with all of the discussions about protecting the privacy and 
data of your clients, if you will, what are the critical 
privacy and data protection issues related to legal sports 
gambling?
    Ms. Harris. In terms of what the operators might distribute 
to third parties? I am unaware that they distribute any of 
that. Any of the information that the board gets is held in 
strictest confidence. Even when we have got a patron dispute 
process where somebody is challenging the outcome of a bet, we 
have an adjudicatory process and a hearing process where they 
are afforded some due process and some consumer protections. 
And even that is held in strict confidence until we get to the 
public hearing portion, and then it is just their image and 
their name that is disclosed. But I am unaware of any of my 
operators that are gratuitously misutilizing personal data.
    Mr. Bernal. Five seconds. There isn't a business in America 
that collects more data on consumers that has less spotlight on 
them than the gambling industry in this country. They know more 
about you than Google, okay. That is their business is to know 
as much about your finances and everything else as possible. So 
when we talk about data collection, they are number one on the 
list.
    Mrs. Demings. Thank you. With that, I yield back.
    Mr. Sensenbrenner. The gentleman from New York, Mr. 
Jeffries.
    Mr. Jeffries. Thank you, Mr. Chairman.
    I thank the witnesses for your testimony. Mr. Chairman, I 
would ask unanimous consent that a statement entitled One Team, 
which is testimony from the NFL Players Association, the Major 
League Baseball Players Association, NHL Players Association, 
NBA Players Association and Major League Soccer Players 
Association be entered into the record.
    Mr. Sensenbrenner. Without objection.
    Mr. Jeffries. Thank you, Mr. Chairman.
    Ms. Slane, in the document that I just made reference to 
that was submitted by the various players associations 
throughout the country for all of the major sports leagues, 
they express concern that an increase in legal sports gambling 
in this country could threaten the safety of players, families, 
umpires, referees and other personnel. Is that a reasonable 
concern?
    Ms. Slane. Thank you for the question. We have spoken to 
all the players associations, unions. Again, I get back to how 
promoting the integrity of the game is of utmost importance to 
us. We have been a great partner I think with the law 
enforcement community--and Becky can specifically speak to 
this--in sharing information when we suspect something may be 
happening with that law enforcement body.
    There was a proposal at one point in time that the leagues 
have access to this information directly. That is not how it 
has traditionally worked. We have no problem handing over 
information to our gaming regulator and/or a law enforcement 
agency if we suspect something. We do not view the role of 
sanctioning players as something that the gaming industry 
should be involved in.
    Mr. Jeffries. Mrs. Moore, speaking from the perspective of 
the NFL, is it fair to say, as set forth in this joint 
statement, that players and families have already been subject 
to threats and physical assault by fans and game attendees?
    Ms. Moore. That is fair, yes, sir.
    Mr. Jeffries. And is it fair to say it is no secret where 
family members sit during games or where players and their 
families live, where their children go to school?
    Ms. Moore. I believe that is fair to say, yes, sir.
    Mr. Jeffries. And is it fair to say that steps will need to 
be taken that address not only the safety during games that 
could implicate or impact family members of players, but also 
in restricted areas, parking lots, team events, and where the 
athletes train?
    Ms. Moore. Yes, sir. And if I could just expand upon that, 
this is why the National Football League is focused on 
protecting the integrity. It is not just the integrity during 
the game and making sure that the public has confidence, but it 
is also in protecting all personnel, whether it is from, you 
know, unscrupulous actors or if a bet happens and someone is 
upset about a bet that happens and wants to take a certain 
action. We have to be sure that that protection extends beyond 
the game, and that includes to all league personnel.
    Mr. Jeffries. And do you think these safety concerns that I 
think have been articulated that you and others perhaps agree 
are accurate and troublesome, in the context of what we are 
exploring, should be taken into consideration as Congress or 
various State legislative bodies consider what to do in this 
space?
    Ms. Moore. We do. And, again, I think that this is yet 
another reason why Federal framework is necessary. And we 
believe that Federal framework should provide a seat at the 
table for leagues and stakeholders relative to all of these 
issues.
    Mr. Jeffries. And, Mr. Bernal, do you want to add to this 
discussion?
    Mr. Bernal. Only just that your question leads to the 
bigger question is, who are we doing sports gambling for? There 
is no grassroots movement for commercialized sports gambling in 
America. If I want to--you know, my barber cuts my hair and I 
place a $10 wager on the Patriots, I mean, it is social 
gambling.
    Who are we doing this for, okay? It is not being done to 
benefit the players. It is not being done to benefit ordinary 
Americans. It is being done to benefit some powerful media 
companies, professional sports team owners, and especially 
gambling interests in this country.
    Mr. Jeffries. Ms. Harris, is it fair to say that there are 
certain types of bets, for instance, wages on individual events 
or actions that occur during the actual game that are more 
susceptible to match fixing efforts and, therefore, would be a 
source of concern for us in this body to take under 
consideration, or do you think that sort of all wagers are 
effectively the same?
    Ms. Harris. So I think there is an assumption that there is 
a variety of exotic wagers that are offered that are not 
offered. As I have talked to my operators about the types of 
wagers that they are offering, you are not able, as of right 
now in Nevada, to bet on when a field goal kicker places the 
football, if it is going to go to the left or the right of the 
goalpost. That is not something technologically that we are 
capable of. If there is going to be an in-play wager, it is 
going to be what is the score and outcome at the end of the 
first quarter or first half or the last drive.
    And so I would argue that in a strictly regulated sports 
betting market, there is not a specific bet type that drives 
illegal market or is more susceptible to some kind of 
impropriety. But what does allow the illegal market to flourish 
is the accessibility, convenience, the ability to issue credit, 
and no requirements to report winnings that we see in the 
illegal sports betting market.
    Mr. Jeffries. Thank you.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentlewoman from Alabama, Mrs. Roby.
    Mrs. Roby. Thank you, Chairman.
    My question, which I would like to ask to all five 
witnesses, is what is the best way to ensure that these young 
student athletes are protected? These college students were 
already entering stadiums full of thousands of screaming fans 
before there would be any fiscal value assigned to a win.
    And so I am wondering how the stakes will change for 
college athletes once online sports betting is open to 
collegiate athletics. And while I am sure I will hear a variety 
of answers, I am genuinely interested in what each one of you 
has to say about this.
    So, please, I will open it and just go down the line. Thank 
you.
    Ms. Moore. Thank you, Congresswoman. The National Football 
League has been working very closely with the NCAA around core 
standards for Federal legislation. We believe that protecting 
the integrity of everyone, athletes at every level, does 
require Federal action, because what we have seen in States so 
far post the Supreme Court decision does not lead us to believe 
that the integrity of our games, the integrity of student 
athletes, the integrity of American athletics is being 
protected.
    So the standards that we outlined around making sure that 
there are very strong State regulatory entities, making sure 
that there are age limits on sports betting, making sure that 
there are protections in game and out of game. As Ms. Harris 
has indicated, more and more betting is moving to more granular 
details in games. So it is not just about the outcome of 
wagers; it is about what is the number of yards gained, the 
number of sacks on a quarterback, whether there are penalties 
around the game.
    And so it is critically important that we do make sure that 
certain bet types are limited. To the question that was raised 
earlier, we do actually believe there are differences in the 
different bet types. We believe that certain bets do impact the 
integrity of sporting contests more than others.
    So, again, that is why we believe the Federal Government 
should be involved and that is why we believe that all 
stakeholders in athletics should have a seat at the table.
    Mr. Bernal. My answer is very short on that. Unequivocally, 
you cannot protect college student athletes in this country 
from gambling interests. They are already not paid, okay, for 
what they do. The notion that somehow we are going to be able 
to protect them from these very powerful financial interests 
that are wagering on their own games is absolutely pie in the 
sky.
    So this isn't being done to benefit those players. So if 
you care about college kids and college sports, this is the 
worst thing that is going to happen to them. So, Congress 
alone--if nothing else was persuasive to you today, the idea 
that Congress, you know, needs to act on some kind of 
prohibition on what is going on here, this is an obvious 
example.
    Ms. Slane. Thank you for your question. I would argue that 
Les is right, they are unpaid athletes. So right now, we have 
no idea if there is illegal activity that is occurring, because 
a lot of this is happening in the black market. So by 
legalizing it, regulating it, looking for discrepancies, then 
when something nefarious may be happening will alert then an 
operator to share that information with the law enforcement 
community and work with the college athletes. I think part of 
that too is just education and training. That is something I 
know that industry has been willing to work with the NCAA with 
and on.
    The second piece of this is on the bet types, just getting 
back to that. There is actually a mechanism in place right now 
in Nevada that if the league opposes a bet type that is being 
offered, they can petition the commissioner, the gaming 
commissioner, and the gaming commissioner has the control then 
to say to the operator, you need to remove that bet.
    Mr. Bruning. I would just say, Congresswoman, that the 
internet doesn't have borders. And if you have betting online, 
it is going to be more opportunities for athletes to make 
horrible mistakes, so--particularly with a 50-State--50 
different solutions in 50 States. You need a Federal overview. 
You have that, but it is not being enforced right now with 
UIGEA. But you need to continue to update that, as the internet 
now is completely robust that every kid has an opportunity on 
their phone.
    Ms. Harris. Congresswoman, as a mother of a college 
athlete, I can give you a unique perspective. And I think that 
the most at-risk college athletes are those who are good enough 
to participate in college but are never going to make it to the 
pro part of whatever their sporting activity is.
    I have had opportunity to speak with different universities 
and conferences about how we would maybe put some protections 
and some parameters around making sure that student athletes 
are protected, and I think some of the things that could be 
addressed are core internal university integrity processes.
    How that player data is utilized by the university, and how 
players are compensated with regard to their scholarships, and 
whether or not there is any kind of particular parameter put 
around officials and all those other things and how that data 
may or may not leak out of the university structure, I think 
that those are some critical things that can be done.
    Mrs. Roby. Thank you. My time has expired.
    Thank you, Chairman.
    Mr. Sensenbrenner. Well, this concludes a number of members 
that wished to ask questions. Let me thank all five of the 
witnesses for providing a lot of very useful information about 
the consequences of the Murphy decision of the U.S. Supreme 
Court.
    I think the one thing that all of you agree on is that for 
Congress to do nothing is the worst possible alternative. So 
this means we have some work to do. And I am looking forward to 
working with you to try to come up with, you know, something 
both short-term and something more permanent to deal with this 
issue, because I am afraid if we don't, there are going to be 
some people that get hurt and hurt very badly.
    So, without objection, the committee stands adjourned.
    [Whereupon, at 11:26 a.m., the subcommittee was adjourned.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
